IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
NO.

HECTOR MOLINA,
PETITIONER,
v.
ROBERT W. FOX, WARDEN,
RESPONDENT.

PETITION OF WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

DENA MARIE YOUNG
CSB #215344
Law Offices of Dena Marie Young
2751 4th Street, PMB #136
Santa Rosa, California 95405
Telephone: (707) 528-9479
Email: dmyounglaw@gmail.com
Attorney for Petitioner
HECTOR MOLINA

QUESTION PRESENTED FOR REVIEW

1)

Whether conviction for premeditated murder committed by others while the

defendant was incarcerated based on the natural and probable consequences of a
gang conspiracy violate Due Process where gang membership substitutes for the
knowledge and intent elements of the crimes?

i

TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW……………………………………i
TABLE OF AUTHORITIES……………………………………………………iv
PETITION FOR WRIT OF CERTIORARI …………….……………………1
OPINION BELOW ……………………………….………………………….…2
RELATED CASES………………………………………………………………2
JURISDICTION…………………………………………………………………3
STATEMENT OF THE CASE …………………………………………………3
STATEMENT OF FACTS ………………………………………………...……5
DISTRICT COURT’S DENIAL OF MOLINA’S PETITION FOR
WRIT OF HABEAS CORPUS…………………………………………………7
BAIL STATUS……………………………………………………………….…12
REASONS FOR GRANTING THE WRIT..…………………………………13
This Court Should Grant Certiorari to Determine Whether the
Ninth Circuit Court of Appeals Undermines a Criminal Defendant’s
Constitutional Right to Due Process and a Fair Trial by Permitting
Gang Membership to Substitute for the Knowledge and Intent Elements
of Premeditated Murder Where the Defendant Did Not Participate in the
Commission of the Crime ……………………….………….……...…….13
A. Importance of the Issues …………………………………….……13
B. Application to This Case …………………………….……………13
CONCLUSION …………………………………………………………………19
ii

APPENDIX
APPENDIX A
Memorandum Opinion, Ninth Circuit Court of Appeals
Molina v. Fox No. 18-15599
APPENDIX B
Order Denying Petition for Rehearing and Rehearing En Banc
APPENDIX C
Order Denying Petition for Writ of Habeas Corpus; Denying Certificate of
Appealability
Molina v. Fox, 16-cv-00207 JST
APPENDIX D
Order (Granting Certificate of Appealability)
APPENDIX E
Opinion, California First District Court of Appeal
People v. Molina A136914 (June 6, 2014) (Unpublished)

iii

TABLE OF AUTHORITIES
Page(s)
Federal Cases
Jackson v. Virginia,
433 U.S. 307 (1979) ……………………………………………....14
Mitchell v. Prunty,
107 F.3d 1337 (9th Cir. 1997) …………………………………16, 17
United States v. Garcia,
151 F.3rd 1243, 1246 (1998) ………………………………….16, 17
United States v. Melchor-Lopez,
627 F.2d 886 (1980) ………………………………………………16
In re Winship,
397 U.S. 358 (1970) ………………………………………………13

State Cases
People v. McCoy,
25 Cal. 4th 1111 (2001) …………………………………………..14
People v. Medina,
46 Cal.4th 913 (2009)…………………………………………14, 15
People v. Rivera,
234 Cal. App. 4th 1350 (2015) ……………………………………15

iv

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
NO.

HECTOR MOLINA,
PETITIONER,
v.
ROBERT W. FOX, WARDEN,
RESPONDENT.

PETITION OF WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

The petitioner, HECTOR MOLINA, respectfully prays that a writ of
certiorari issue to review the judgment of the United States Court of Appeals for
the Ninth Circuit, entered July 9, 2020.

OPINION BELOW
The Ninth Circuit Court of Appeals entered a memorandum opinion in
Molina v. Fox, No. 18-15599, on July 9, 2020. A copy of the Opinion is attached
as Appendix A.1
A timely Petition for Rehearing and Rehearing En Banc was filed on July
23, 2020. This petition was denied on August 26, 2020. A copy of the Order is
attached as Appendix B.
The District Court’s Order Denying the Petition for Writ Of Habeas
Corpus; Denying a Certificate of Appealability in Molina v. Fox, 16-cv-00207
JST is attached as Appendix C. The matter was not referred to the magistrate.
On September 25, 2018, the Ninth Circuit Court of Appeals granted a
certificate of appealability in Molina v. Fox, No. 18-15599. This Order is
attached as Appendix D.
RELATED CASES
MOLINA’s underlying state case is currently pending before the
California Court of Appeal (First District) as People v. Molina, A159796. This
appeal is anticipated to address the issue of whether recently enacted California

1

The caption of this Opinion contains the name of the parties to the
proceedings.
2

Penal Code § 1170.95, which amended the application of the natural and
probable consequences doctrine to murder, applies to MOLINA’s case. Briefing
has not yet been filed in that matter.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
STATEMENT OF THE CASE
This appeal is from the District Court’s denial of a state prisoner’s petition
for writ of habeas corpus.
On June 28, 2012, petitioner HECTOR MOLINA (MOLINA), was
convicted by a jury in Contra Costa County Superior Court of three counts of
first-degree murder [Counts 1, 7, 9] and one count of second-degree murder
[Count 8] in violation of Penal Code § 187; attempted murder in violation of
Penal Code § 664/187 [Counts 2, 3]; conspiracy to commit murder and assault
with a deadly weapon in violation of Penal Code § 182(a)(1) [Count 4]; and
participation in a criminal street gang conspiracy in violation of Penal Code §
182.5 [Count 5]. With respect to Counts 1 – 4, the jury found that MOLINA
personally used and discharged a firearm, causing great bodily injury or death
within the meaning of Penal Code § 12022.53. The jury also found that

3

MOLINA committed these acts for the benefit of a criminal street gang in
violation of Penal Code 186.22(b).
On September 7, 2012, MOLINA was sentenced to state prison for a term
of 169 years and 4 months consecutive to a term of life without the possibility of
parole.
MOLINA unsuccessfully challenged his conviction in the California
appellate courts. On direct appeal, MOLINA challenged the same issues raised
in his petition for writ of habeas corpus. On June 6, 2014, the California Court
of Appeal affirmed his convictions. On August 27, 2014, the California
Supreme Court denied MOLINA’s petition for review.
MOLINA, a state prisoner serving life without the possibility of parole,
filed a petition for writ of habeas corpus in the United States District Court,
Northern District of California, on January 12, 2016. MOLINA claimed that he
was denied due process in violation of the Fifth and Fourteenth Amendments to
the United States Constitution because there was insufficient evidence to support
the murder convictions in Counts 8 and 9.
On February 20, 2018, the Honorable Jon S. Tigar, District Court Judge,
in a memorandum opinion in Molina v. Fox, 16-cv-00207 JST, denied
MOLINA’s petition and denied a certificate of appealability.
4

MOLINA filed a timely notice of appeal on April 4, 2018.
On September 27, 2018, the Ninth Circuit Court of Appeals issued a
certificate of appealability on the following issue: whether the evidence was
sufficient to support appellant’s convictions for the murders of Lisa Thayer
[Count 8] and Rico McIntosh [Count 9].
The matter was submitted to the Ninth Circuit panel without oral
argument on June 9, 2020.
On July 9, 2020, the Court of Appeals issued a Memorandum Opinion,
affirming the judgment of the District Court. This Memorandum is attached as
Appendix A.
On July 23, 2020, MOLINA filed a timely Petition for Rehearing and
Rehearing En Banc. This Petition was denied on August 26, 2020.
STATEMENT OF FACTS
The district court incorporated the statement of facts as summarized by
the California Court of Appeal in People v. Molina, No. A136914 (June 6,
2014) (unpublished) 2:
According to the prosecution’s gang expert witness and former gang
members, by 2007, the VFL and ML Sureño gangs were
encountering hard times. Gang members were breaking the
prohibition on killing other members, and successive leaders were
2

This Opinion is attached as Appendix E.
5

forced to leave the country. Following an informal amalgamation,
VFL and ML members sought to boost their waning prestige with a
strategy of killing rival Norteño gang members. Defendant was a
member of VFL and one of the members hunting down Norteños.
Defendant went hunting on the night of December 22, 2007.
Defendant was one of a number of Sureños who hid behind a fence
until some Norteños came into view and then opened fire.
Defendant killed Antonio Cintron (count one) and attempted to kill
Adrian Espinoza (count two) and Neil Wixon (count three).
Defendant was also convicted of conspiring to kill (count four) and
engaging in gang activity (count five).
On February 16, 2008, defendant was driving one of . . . two
vehicles full of Sureños. When a suspected Norteño was found,
defendant told the others to “get that motherfucker.” Other gang
members got out and killed Luis Perez (count seven).
Defendant was arrested on February 27, 2008 and was never
thereafter out of custody. While in custody, defendant had a number
of telephone calls with his mother and the then VFL leader. The
calls were recorded. During the conversation, defendant made a
number of statements that could be construed as confessing to
murder. Defendant also made a number of incriminating
statements—including that he had shot Antonio Cintron—to a VFL
member who had agreed to become a police informant. The
informant also testified that two other gang members identified
defendant as Cintron’s murderer.
February 27 was also the day on which homeless bystander Lisa
Thayer was killed (count eight) when she was caught between
Sureños firing at the occupants of a passing car.
On April 26, 2008, Rico McIntosh was shot on the streets of San
Pablo. Before he died of his wounds (count nine), McIntosh told
police that he had been shot by the Hispanic male occupants of a
6

vehicle. McIntosh was killed by VFL members in the mistaken
belief he was a Norteño.
Defendant did not testify in his own behalf. The only witnesses
called for the defense were: (1) Adrian Espinoza, who testified that
he was unable to identify who shot him; (2) a private investigator,
who testified that Espinoza gave him a version of the shooting that
Differed from his trial testimony; and (3) Dr. Carol Walser, who
testified to defendant’s low I.Q. and lifelong impaired cognitive
functions which placed him “at the mental retardation level.”
(Exhibit C, pp. 2-3).

DISTRICT COURT’S DENIAL OF MOLINA’S PETITION
FOR WRIT OF HABEAS CORPPUS
The district court found that the California courts did not
unreasonably reject Molina’s claims:
Based on a review of the record, and applying these legal principles
to petitioner’s current allegations, the state court’s rejection of this
claim was not contrary to, and did not involve an unreasonable
application of, Supreme Court precedent, and was not based on an
unreasonable determination of the facts in light of the evidence
presented in the state court proceeding. 28 U.S.C. § 2254(d).
Molina v. Fox, 16-cv-00207-JST, February 20, 2018. (ER 41, CR 36).
In support of that opinion, the district court extensively quoted
and deferred to the opinion of the California Court of Appeal:
Under this caption in his brief, “two of appellant’s four convictions
of murder must be reversed because the evidence fails to show that
appellant perpetrated, aided and abetted, or conspired to commit
7

them,” defendant argues: “Appellant was tried and convicted of
murder in counts one, seven, eight, and nine. The prosecution
presented evidence to show that appellant fired the shots that killed
Antonio Cintron in count one and evidence to show that appellant
drove the getaway car from the shooting that killed Luis Perez in
count seven. However, the prosecution presented no evidence to
show that appellant had any responsibility for the shooting deaths of
Lisa Thayer in count eight or Rico McIntosh in count nine.”
It is significant that defendant does not challenge his conviction for
conspiracy (count four), because it is that peculiar creature, the law
of conspiracy, which defeats defendant’s attempt to overturn the two
murder convictions. Defendant, on the other hand, has only naked
logic on this side. After all, he maintains: “I was in the county jail, I
did not provide the gun(s) or any other instrumentality used in the
murders, and I gave no direct orders for the murders.”
The law on this issue may continue to be controversial, but it is
settled.
“Since conspiracy is a continuing offense [citation], a defendant
who has joined a conspiracy continues to violate the law ‘through
every moment of [the conspiracy’s] existence,’ [citation], and he
becomes responsible for the acts of his co-conspirators in pursuit of
their common plot.” (Smith v. United States (2013) 568 U.S. [106],
[133 S.Ct. 714, 719].) This court made the same point three decades
ago: “Once the conspiracy is established it is not necessary to prove
that each conspirator personally participated in each . . . [act of the
conspiracy] . . . since members of the conspiracy are bound by all
acts of all members committed in furtherance of the conspiracy.”
(People v. Cooks (1983) 141 Cal.App.3d 224, 312; see People v.
Kauffman (1907) 152 Cal. 331, 334 [“‘In contemplation of law the
act of one is the act of all. Each is responsible for everything done
by his confederates’”].)

8

We continued: “The crime of conspiracy can be committed whether
the conspirators fully comprehended its scope, whether they acted
together or in separate groups, or whether they used the same or
different means known or unknown to them.” (People v. Cooks,
supra, 141 Cal.App.3d 224, 312.) One of the authorities cited for
this principle was our decision in People v. Means (1960) 179
Cal.App.2d 72, 80, where we stated: “[T]here need be no showing
of direct association between members of a conspiracy. Common
design is the essence of a conspiracy and the crime can be
committed whether the parties comprehend its entire scope, or
whether they act in separate groups or together, by the same or
different means known or unknown to them, if their actions are
consistently leading to the same unlawful result . . . .”
And, strikingly applicable here, we further stated in 1983: “Once the
defendant’s participation in the conspiracy is shown, it will be
presumed to continue unless he is able to prove, as a matter of
defense, that he effectively withdrew from the conspiracy.
[Citation.] [¶] Although a defendant’s arrest and incarceration may
terminate his participation in an alleged conspiracy, his arrest does
not terminate, or constitute a withdrawal from the conspiracy as a
matter of law. [Citations.] Withdrawal from, or termination of, a
conspiracy is a question of fact.” (People v. Cooks, supra, 141
Cal.App.3d 224, 316.)
“‘Each member of the conspiracy is liable for the acts of any of the
others in carrying out the common purpose, i.e., all acts within the
reasonable and probable consequences of the common unlawful
design.’“ (People v. Flores (2005) 129 Cal.App.4th 174, 182,
quoting what is now 1 Witkin & Epstein, Cal. Criminal Law (4th ed.
2012) Elements, § 98, p. 404.) And, in the classic formulation by
our Supreme Court: “whether or not the act committed was the
ordinary and probable effect of the common design or whether it
was a fresh and independent product of the mind of one of the
conspirators, outside of, or foreign to, the common design, is a
question of fact for the jury [citations], and if there be any evidence
9

to support the finding of the jury on this question, its determination
is conclusive.” (People v. Kauffman, supra, 152 Cal. 331, 335.) This
is part of the jury’s power “considering the unique circumstances
and the nature and purpose of the conspiracy of each case—to
determine precisely when the conspiracy has ended.” (People v.
Saling (1972) 7 Cal.3d 844, 852.)
From these authorities it should be clear that defendant’s
incarceration and lack of direct communication to the killers of
Thayer and McIntosh is not legally dispositive. Neither his actual
presence nor his direct participation was required for liability.
Defendant does not dispute his membership in a criminal street
gang. He does not dispute the existence of the conspiracy, or that he
was properly convicted of that substantive offense. He does not
contend he ever withdrew from that conspiracy. He is thus liable for
the Thayer and McIntosh murders committed after his incarceration,
if they can be deemed the “ordinary and probable effect[s]” (People
v. Kauffman, supra, 152 Cal. 331, 335), the “‘reasonable and
probable consequences’“ (People v. Flores, supra, 129 Cal.App.4th
174, 182) of the conspiracy.
This is where defendant makes his stand: he argues that he cannot be
convicted of the Thayer and McIntosh killings because, adopting
another Supreme Court phrasing, “those two killings were not the
natural and probable consequences of any conspiracy [see People v.
Prieto (2003) 30 Cal.4th 226, 250] entered into by appellant . . . .
[N]othing about appellant’s expressed intention suggested that
appellant and other gang members conspired that they would
aggressively hunt for Norteños and anyone who resembled Norteños
and kill them at every opportunity for an indefinite period of time
into the future . . . . No evidence was presented to show that
appellant aided, facilitated, or encouraged either of the killings in
counts eight and nine. It would be unreasonable to expand
conspiracy theory liability to cover murders committed after a
conspirator is in custody when there is no clear link between the
10

conspirator and the killing. Thus, the shooting deaths of Thayer and
McIntosh could not be the natural and probable consequences of any
conspiracy involving appellant.” We do not agree.
Insofar as defendant is relying on his status as a prisoner in the
county jail, it has been shown that the fact of his incarceration does
not terminate his potential criminal liability as a matter of law. In
any event, it would be inaccurate to picture defendant as sitting
silently in his cell, with no contact with his VFL colleagues. The
jury heard evidence of recorded phone conversations that defendant
made to the gang’s current leader. The leader promised to send
money to defendant while he was in jail, and to take care of
defendant’s mother. The leader also provided information of the
latest developments concerning other gang members and gave
defendant messages to pass on to other gang members in the jail.
Most crucially, he gave orders to defendant and made it clear
defendant was still under gang discipline. The jury also heard
testimony from a jail guard that defendant appeared to be
associating and socializing with the other Sureños inmates. From
this evidence the jury could conclude that defendant never withdrew
from the conspiracy but remained an active part of it.
Defendant’s emphasis on the lack of a “clear link” between himself
in jail and other gang members is also misplaced, for it erroneously
assumes that a direct connection and correlation is required. (People
v. Means, supra, 179 Cal.App.2d 72, 80.) It is also contrary to the
presumption that defendant remained a member of the conspiracy.
(People v. Cooks, supra, 141 Cal.App.3d 224, 316.)
Defendant’s assumption is also at odds with the nature of
conspiracies. “‘[I]t was not necessary for the State to prove that the
parties actually came together, mutually discussed their common
design, and after reaching a formal agreement set out upon their
previously agreed course of conduct.’“ (Lorenson v. Superior Court
(1950) 35 Cal.2d 49, 57.) “It is seldom possible for the prosecution
11

to offer direct evidence of an agreement to commit a crime. The
agreement to commit the crime is usually made in secrecy. The
conspiracy must be inferred by the trier of fact from all the
circumstances” (People v. Chavez (1962) 208 Cal.App.2d 248, 253),
which here would include the “common gang membership . . . ‘the
conduct [of the conspirators] in mutually carrying out a common
illegal purpose, the nature of the act, the relationship of the parties
[and] the interests of the alleged conspirators . . . .’” (People v.
Superior Court (Quinteros) (1993) 13 Cal.App.4th 12, 20-21.)
The jury heard more than ample evidence that the VFL and ML
Sureño gangs had a systematic practice of hunting down and trying
to kill rival Norteño gang members and suspected members. The
killings were accomplished in the same manner—on the streets,
using handguns. Defendant participated in that campaign of killing
before he was arrested. Thus, the jury had a basis for treating
subsequent Norteño killings as the natural and probable
consequences of the conspiracy, and for treating defendant, even
after he was incarcerated, as still a member of the on-going
conspiracy. (People v. Zamudio, supra, 43 Cal.4th 327, 357; People
v. Kauffman, supra, 152 Cal. 331, 335; People v. Flores, supra, 129
Cal.App.4th 174, 182; People v. Cooks, supra, 141 Cal.App.3d 224,
316.)
People v. Molina, 2014 WL 2553335, at *11-14 (footnote omitted). (Exhibit E).

BAIL STATUS
MOLINA is currently incarcerated at the Salinas Valley State Prison at
Soledad, California, pursuant to the sentence of 169 years to life without the
possibility of parole imposed by the Contra Costa County Superior Court in this
case.
12

REASON FOR GRANTING THE WRIT
This Court Should Grant Certiorari to Determine Whether the Ninth
Circuit Court of Appeals Decision Undermines a Criminal
Defendant’s Constitutional Right to Due Process and a Fair Trial by
Permitting Gang Membership to Substitute for the Knowledge and
Intent Elements of Premeditated Murder Where the Defendant Did
Not Participate in the Commission of the Crime

A.

Importance of the Issues:
The question of whether a criminal defendant can be convicted of

premeditated murder when the crime was committed by others without the
defendant’s participation is an issue of national importance. What limitations, if
any, are placed on the use of membership in a criminal street gang as a substitute
for the knowledge and intent elements required to support a criminal conviction
is an issue which arises repeatedly in the criminal justice system, and an issue for
which there is no clear guidance.
B.

Application to This Case:
The Due Process Clause “protects the accused against conviction except

upon proof beyond a reasonable doubt of every fact necessary to constitute the
crime with which he is charged.” In re Winship, 397 U.S. 358, 364 (1970). A
reviewing court determines whether, “after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the
13

essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia,
433 U.S. 307, 319 (1979).
It is undisputed that MOLINA was in custody at the time of the shootings
of Lisa Thayer [Count 8] and Rico McIntosh [Count 9]. MOLINA did not
personally participate in the acts which lead to these deaths. He did not aid and
abet these killings. Instead, the only theory of liability presented to the jury was
that these killings were the natural and probable consequences of the conspiracy
to commit assault and/or murder charged in Count 4 which was based on
MOLINA’s status as a gang member.
Under California law, “‘[a] person who knowingly aids and abets criminal
conduct is guilty of not only the intended crime [target offense] but also of any
other crime the perpetrator actually commits [nontarget offense] that is a natural
and probable consequence of the intended crime.’” People v. Medina, 46 Cal.4th
913, 920 (2009); citing People v. Prettyman, 14 Cal.4th 248, 260–262 (1996).
“Thus, for example, if a person aids and abets only an intended assault, but a
murder results, that person may be guilty of that murder, even if unintended, if it
is a natural and probable consequence of the intended assault.” People v. McCoy,
25 Cal. 4th 1111, 1117 (2001). A nontarget offense is a “‘natural and probable
consequence’” of the target offense if, judged objectively, the additional offense
14

was reasonably foreseeable. Medina, supra, 46 Cal.4th at 920. The inquiry does
not depend on whether the aider and abettor actually foresaw the nontarget
offense. Ibid. Rather, liability “‘is measured by whether a reasonable person in
the defendant's position would have or should have known that the charged
offense was a reasonably foreseeable consequence of the act aided and abetted.’”
Ibid. The natural and probable consequences doctrine applies to co-conspirator
liability in the same fashion. People v. Rivera, 234 Cal. App. 4th 1350, 1356
(2015).
In affirming MOLINA’s convictions the Ninth Circuit decision expands
MOLINA’s liability beyond what is reasonably foreseeable. The opinion
suggests that being a gang member is enough to show participation in an ongoing
conspiracy to commit assaults and/or to kill rival gang members. This expansion
of liability is not even consistent with Ninth Circuit precedent:
[T]here can be no conviction for guilt by association, and it is clear
that mere association with members of a conspiracy, the existence of
an opportunity to join a conspiracy, or simple knowledge, approval
of, or acquiescence in the object or purpose of the conspiracy,
without an intention and agreement to accomplish a specific illegal
objective, is not sufficient to make one a conspirator. While each of
these circumstances may be a relevant factor to be considered in a
given case where existence of an agreement is in issue, no mere
suspicion or surmise is permitted to replace the essential analysis of
the qualitative nature of the acts in question. The line between
conspiracy and an unexercised opportunity to join a conspiracy may
15

be difficult to draw, but it must be drawn where the existence of an
agreement is absent.
United States v. Melchor-Lopez, 627 F.2d 886, 891 (1980) (citations omitted).
In Mitchell v. Prunty, 107 F.3d 1337, 1342 (9th Cir. 1997), cert. denied,
118 S. Ct. 295, 139 L. Ed. 2d 227 (1997), overruled in part on other grounds,
Santamaria v. Horsley, 133 F.3d 1242 (9th Cir. 1998) (en banc), the court
overturned a state conviction of a gang member where the theory of liability was
that he aided and abetted a murder by “fanning the fires of gang warfare.” The
Mitchell court expressed concern that this was tantamount to guilt by association.
Ibid. The conviction rested on the “faulty assumption” that gang members could
be expected to act together in a particular fashion. Ibid. The Mitchell court found
that a generalized readiness to do violence does not establish a specific objective
for aiding and abetting. Ibid. The Mitchell court also expressed concern that
allowing such a broad theory could lead to the absurd result that any gang
member could be held liable for the acts of any other gang member anywhere,
anytime, as long as the common purpose was “fighting the enemy” or “backing
up” each other. Id. at 1341.
In United States v. Garcia, 151 F.3rd 1243, 1246 (1998), the court applied
the reasoning of Mitchell to the conspiracy theory of liability. The Garcia court
found that the existence of an implicit, general agreement among gang members
16

to support one another in fights against rival gang is not sufficient evidence to
support a conviction of conspiracy to commit assault when the conduct of the
alleged conspirators is otherwise insufficient. Garcia, supra at 1244.
[A]llowing a general agreement among gang members to back each
other up to serve as sufficient evidence of a conspiracy would mean
that any time more than one gang member was involved in a fight it
would constitute an act in furtherance of the conspiracy and all gang
members could be held criminally responsible - whether they
participated in or had knowledge of the particular criminal act, and
whether or not they were present when the act occurred. Indeed,
were we to accept "fighting the enemy" as an illegal objective, all
gang members would probably be subject to felony prosecutions
sooner rather than later, even though they had never personally
committed an improper act.
Garcia, supra, at 1246.
In the present case, MOLINA does not challenge his conviction for
conspiracy to commit assault and/or murder on December 22, 2007. There is
evidence that MOLINA agreed with others to fire a gun at a specific group of
people and carried out the object of that conspiracy. However, that conspiracy
cannot continue beyond the date on which MOLINA was arrested to encompass
the murders charged in Counts 8 and 9, unless the objective of the conspiracy
shifts from “attack these specific rival gang members” (as charged in the
Indictment) to “attack any rival gang members, anywhere, anytime” which is the
equivalent of “fighting the enemy” as discussed in Mitchell. This is nothing
17

more than a way of saying gang members act in a particular way. The resulting
“conspiracy” is so undefined in its scope and objectives that the jury could easily
substitute “guilt by association” for the elements of the offense in violation of
Due Process.
The Ninth Circuit opinion focused on MOLINA’s failure to withdraw from
the conspiracy as a basis for liability. However, given the amorphous nature of
the conspiracy, it is impossible to determine how MOLINA was supposed to
withdraw, and from what he was supposed to withdraw. Presumably, MOLINA
would have been required to undergo a formal debriefing process and renounce
the gang in order to successfully withdraw from this conspiracy since he could
not renounce acts that he could not anticipate others would commit while he was
in custody.
By failing to consider how the conspiracy was defined and to consider the
practical limitations of that conspiracy, the Ninth Circuit opinion is inconsistent
principles of due process and the requirement that each and every element of the
offense be proven beyond a reasonable doubt. It leaves open-ended a
defendant’s potential liability for crimes committed by others without his
knowledge or participation. As such, it denies defendants like MOLINA, who are
charged with gang crimes, a fair trial. This expansion of liability represents a
18

